 Department of Health and Human Semites

        OFFICE OF
   INSPECTOR GENERAL




NAPPROPRIATE PAYMENTS FOR TOTAL
   PARENTERAL NUTRITION (TPN)
                      OFFICE OF INSPECI’OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPEC’HONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Health Care
Branch under the direction of Penny R. Thompson, Chief.

Cathaleen A. Ahern, Project Leader

Computer and statistical assistance provided by Wm. Mark Krushat, Sc. D., Linda M. Moscoe,
and Brian P. Ritchie, of the Technical Support Staff, OEI.

For additional copies of this report, please contact the Health Care Branch at (410) 966-3148.
 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




INAPPROPRIATE PAYMENTS FOR TOTA .
    PARENTERAL NUTRITION (TPN)




            MAY 1993   OEI-12-92-O0460
               EXECUTIVE                           SUMMARY

PURPOSE


Thepurpose      of this report istoexamine Medicare coverage of total parenteral

nutrition, a “high tech” means of feeding patients who do not have a functioning

intestinal tract.


BACKGROUND


Total parenteral nutrition is lifesaving for the small number of patients who lack a

functioning intestinal tract, usually because of severe bowel disease or a surgical

shortening of the bowel, so that insufficient length remains to absorb nutrients.

Medicare covers this very expensive therapy as long as strict coverage guidelines are

met. Prior to the advent of the common working file, inconsistent carrier reporting of

payments hampered analysis of payment data. Claims paid in 1991 represent the first

reliable source of data for analysis and are available at a time when the infusion

therapies, of which parenteral nutrition is one, are undergoing rapid expansion.     This

is the first in a series of reports examining infusion therapy.


METHODS


We based this inspection on three data sources: a l-percent sample of paid claims for

parenteral setwices; a telephone survey of 93 randomly-selected      dialysis facilities; and

intewiews with experts in the field. We examined the claims data to determine for

whom and for what conditions parenteral nutrition is being used, and the survey

information supplements     the claims data for a subset of patients, those with end-stage

renal disease (ESRD).


FINDINGS


  �	   Medicare overpaid $69 million for total parenteral     nutrition   in 1991, 43 percent
       of the total of $162 million paid for this service.

  �	   More than half the patients in the sample (53 percent) had ESRD,          and
       received parenteral nutrition as a supplement, three times a week.        The benefit
       of supplemental   parenteral nutrition for these patients is unproven,    and the
       charges are disproportionately   high for the nutrients supplied.

  �	   Review of total parenteral nutrition use in the non-ESRD population          reveals
       inappropriate  patient selection and over- and under-feeding.




                                               i
RECOMMENDATIONS

The Health   Care Financing      Administration    (HCFA)       should:

  �	   instruct carriers to adhere to a strict interpretation of the coverage         guidelines.
       We estimate this will result in savings of $69 million a year.

  �	   require the carriers to intensifY review of certificates of medical necessity,
       discuss therapeutic options with physicians, and monitor the use of nutrients
       over time. One approach might be the use of “case managers,” to interact with
       suppliers and physicians.

  �	   review research      into the clinical appropriateness      of and payment   methodologies
       for intra-dialytic    parenteral nutrition.

AGENCY       COMMENTS

We received comments on the draft report from HCFA and the Assistant Secretary of

Management    and Budget (ASMB), both of whom concurred with these

recommendations;    HCFA has taken steps to implement them. The HCFA will defer

responding to the question of appropriate    payment methods for intra-dialytic

parenteral nutrition until a coverage decision has been made. The HCFA’S comments

are appended in full.





                                                  ii
                         TABLE                    OF CONTENTS

INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   6


 �      Overpayments       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   6


 �      ESRD Patients      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   7


    �   Non-ESRD       Patients    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   9


RECOMMENDATIONS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


A       1991 payments      for Total Parenteral          Nutrition       . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Distribution        of claims by carrier          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


C:	 Survey of dialysis facilities.             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-1


D:      Agency comments           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1

                         INTRODUCTION

PURPOSE


The purpose of this inspection was to examine Medicare coverage of total parenteral

nutrition (TPN), a “high tech” means of feeding patients who do not have a

functioning intestinal tract.


BACKGROUND


Clinical: Total parenteral nutrition (TPN) is a therapy designed to maintain adequate

nutrition in those patients who cannot eat normally. Early attempts at enriched, easy-

to-digest formulas included carbohydrate-rich  “joy juice,” taken by mouth, and vitamin-

enriched intravenous (IV) feedings. Generically called “hyperalimentation,”   both

enteral and parenteral nutrition have become treatments of choice for nutritionally-

impaired patients.


Oral or tube feedings meet the needs of those patients with a functioning

gastrointestinal  tract. Enteral formulas, which can be milk-based or milk-free, are

available in drugstores.   The formulas can be merely protein or calorie supplements,

or nutritionally complete.    These are administered   by mouth for debilitated patients;

through naso-gastric tubes for patients who cannot swallow or who have a damaged

alimentary tract; and directly into the stomach or intestines via surgically-implanted

tubes for patients requiring long-term maintenance.      A simple pump can be used to

maintain a steady flow, although gravity will suffice for all but those patients fed into

the jejunum.     These are comparatively “low tech” therapies, easily managed in terms of

the patient’s nutritional status, cleanliness and patency of the tubes, and ease of

administration.    Many patients on tube feedings are residents of nursing homes,

although the technique can be used in the patient’s own home, managed by the

patient or a family member, with the help of a visiting nurse.


An intermediate    nutritional supplement, used mainly in conjunction with surgery, is

enriched IV feedings. Normally, IVS hydrate patients who should not take liquids

orally, for fear of vomiting and aspirating the tluid into the lungs during or following

surgery. They can be glucose solutions, to provide some calories, or other chemical

solutions to maintain the patient’s electrolyte balance. If a patient cannot tolerate

solid food, he or she can be maintained on IVS with additives, such as vitamins,

purified fats, and amino acids, for about 10 days. These solutions cannot be used for

longer than that since the patient’s peripheral veins cannot tolerate the enriched

solutions, and because these solutions may not be not sufficient to meet a patient’s

nutritional needs over time,


When a patient lacks a functioning gastrointestinal tract, nutrition must be supplied

directly into the blood stream, from which it can be absorbed by the tissues. This is

known as TPN. A catheter is advanced into a large vein, usually the superior vena




                                             1

cava, through the chest wall. The catheter can be tunnelled        through the fatty tissue of

the chest, both to anchor it and to prevent air from entering       during dressing changes.

All stages of this therapy require the use of sterile technique     - during surgery to insert

the tube, during dressing changes, during the preparation     of   the nutritional tluid, and

during the attachment of the fluid containers to the catheter.


Manufacturers    sell standard nutrient solutions in quantity; these solutions are then

modified by prescription,     depending on the patient’s condition, blood counts, organ

function, weight, etc. In the hospital, a pharmacist would add trace minerals,

additional amino acids, vitamins, etc., based on the physician’s order. The solution’s

composition might change daily, depending on the results of frequent blood tests,

urinalyses, and monitoring of fluid balance. A nurse attending the patient would add

medications such as insulin just before administering the solution. A pump maintains

a steady rate of flow, and a filter inserted in the line filters out bacteria or any other

particulate matter.


Although the TPN technique is more complex than other feeding regimens, patients

can learn to administer their own feedings. Teaching begins in the hospital, and can

be reinforced at home by visiting nurses. By the time the patient goes home, he or

she would not require such frequent adjustments of the formula, and would add

medication, vitamins, etc., by injecting them through the sterile rubber diaphragm over

the neck of the bottle or bag before hanging it. To successfully administer their own

TPN, patients (or family members) must be able to understand and maintain sterile

technique, monitor their weight and physical condition, and be alert for complications.

Patients who are otherwise healthy can infuse overnight, and go to work during the

day, plugging the catheter when not in use. Other patients are too debilitated by their

underlying disorder to lead a normal life.


Complications of TPN can be life-threatening.      Among the metabolic complications of

the therapy are electrolyte imbalances, which can lead to irregularities of the

heartbeat, diabetic coma, fainting, etc., and fluid imbalances. Other complications of

long-term TPN are bone pain and liver dysfunction.      Among other risks are

pneumothorax    [lung collapse) caused by the catheter, and thrombosis or air embolism,

caused by a clot’s breaking loose or air entering the superior vena cava, usually

associated with a dressing or tube change. Another serious complication is septicemia

(“blood poisoning”) associated with use of the indwelling catheter.    Some patients

cannot be maintained on TPN because of recurrent infection, intolerable diarrhea, or

an inability to manage their own care.


Among the conditions for which TPN is indicated are short-bowel syndromes, in which

the intestines have been removed due to cancer or necrosis of the tissues. In other

conditions such as Crohn’s disease, TPN may be used during acute phases of the

disease, and normal food may be tolerated during remissions.    (Patients with Crohn’s

disease can use enteral nutrients during some stages of their disease.) Hospitalized

patients who have extensive burns can be given TPN, as can patients with multiple

organ failure. Surgeons will sometimes want to prepare poorly-nourished     patients for



                                              2

the demands of extensive surgery by putting them on TPN pre-operatively.        Healing

can be delayed when nutrition needs are unmet, so TPN is sometimes used on a short-

term basis for patients who have functioning gastrointestinal tracts, but fail to take in

enough food to nourish themselves.


Other patients for whom TPN may be ordered are those who are cachectic, i.e., in a

disease-related  state of profound ill health and malnutrition. Two conditions in which

cachexia is common are terminal cancer and renal failure. Acquired

immunodeficiency     syndrome (AIDS) is associated with a wasting syndrome, in which

weight loss, fever, night sweats, oral thrush, and diarrhea are common.


Medicare coverage: Medicare covers TPN both at home and in the hospital.           When

TPN is administered    in the hospital, payment for it is included in the diagnosis-related

group (DRG) payment.        No justification for using it is needed. In the home setting,

however, Medicare covers TPN as a prosthetic device, which replaces an inoperative

body organ or function. Most prostheses replace a missing body part, so they are by

definition permanent conditions.       As discussed above, however, some patients use

TPN only intermittently.    The Coverage Issues Manual addresses this, by providing for

a presumption of permanence       if the impairment, in the judgment of the attending

physician, will be of long and indefinite duration.


A physician must certify the medical necessity of the therapy, the pump, and pre-

mixed (as opposed to patient-mixed)      compounds. Only a one-month supply of

nutrients will be paid for at one time.


Medicare requires that the certifying physician describe the “functional impairment”

which necessitates the use of TPN. A diagnosis of “colon cancer” or “colostomy,” for

example, does not describe a functional impairment, since most patients with either or

both conditions could ingest and digest food normally. Generalized debility and weight

loss, as in cachexia, would similarly not meet the coverage guidelines, since no

functional impairment is identified.   Thus, for example, a patient terminally ill with

cancer of the throat would be eligible for treatment with enteral therapy, most likely

through a tube into the stomach or intestines; while another very ill cancer patient,

with severe weight loss but no functional impairment, would not qualify at all; and yet

another patient, whose treatment included radiation treatment which scarred the

intestines so that they no longer function, would be eligible for parenteral therapy.


While such coverage guidelines may appear to restrict access for patients who would

benefit from nutritional therapy, such restriction can be justified by the invasive nature

of the treatment, the risk of complications, and the lack of proven benefit. A review

of the limited medical literature discussing parenteral therapy (in The New England

Journal of Medicine, Vol. 325, No. 8, August 22, 1991, pp 573-5) refers to the few,

largely inadequate clinical trials, mixed results of therapy, and the need to balance the

theoretical benefit with the risk of serious complications.





                                              3

Both the Covera~e Issues Manual andthe Carriers Manual specifically exclude
coverage of nutritional supplements.   While the manual pages do not address the
question of oral food intake (except in excluding nutritional supplements), the
certification form does ask if TPN is the patient’s only form of intake.

Beginning in 1985, the Health Care Financing Administration        (HCFA) established two
carriers for all hyperalimentation  claims. Transamerica    Occidental Life Insurance
Company, Los Angeles, handles claims west of the Mississippi, and Blue Cross/Blue
Shield of South Carolina processes those in the East, with the geographic determinant
the location of the supplier’s head office. The Eastern carrier, South Carolina Blue
Shield, processes the majority of all parenteral claims. The carriers have established
special units to certify and process claims for enteral and parenteral patients.    (Claims
for Railroad Retirement beneficiaries are processed by the Travelers Insurance
Company.)     A Final Rule with comment period published in June 1992 outlined a
change in the way durable medical equipment claims, including those for prosthetic
devices and thus TPN, will be processed.     Four specialty carriers with responsibility for
segments of the nation will process these claims based on the beneficiary’s residence.

METHODS

We relied on three data sources developed for this inspection.     The first involved a
l-percent, random sample of al] patients who had claims paid on their behalf by
Medicare for a parenteral pump or parenteral nutrients in 1991. A total of 58
patients were identified in June 1992. We selected this sample from the common
working file (CWF), and it is the source of the summary payment data presented in
this report. Patients whose first claims were submitted later than May 1992, even if
the semices were rendered in 1991, may not be represented      in this sample. These
data represent patients with claims paid as of December,    1991, updated for the final
report with claims paid through March 1993. We further identified the patients
appearing in the sample in the enrollment data base, for information on their age,
date of death (when applicable), and basis of eligibility.

We also asked the three carriers for copies of a certification of need for TPN for each
sample patient. We did not examine medical records, but rather obtained diagnostic
information from the Part A payment records and from the certification of the need
for TPN.

The second data set was information received from a randomly-selected       sample of 93
outpatient dialysis facilities. We sumeyed the facilities by telephone, asking for the
number of patients currently receiving intra-dialytic parenteral nutrition (IDPN) (that
is, parenteral nutrition given to a patient who is being dialyzed), whether any of these
patients were on TPN at home, whether they received the nutrients through a central
line, and how many days a week they were given IDPN, among other questions.

We also interviewed a number of experts in the field. Among those to whom we
spoke were a physician who prescribes TPN, a home health agency nurse, a hospital



                                             4

pharmacist, hospital discharge planners, a hospital nurse specializing in infusion
therapy, a dietitian, supplier representatives,   infusion therapy and nutritional therapy
association staff members, dialysis facility staff, and HCFA and carrier staff.

We conducted this review in accordance with the Qua&y Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              5

                                  FINDINGS

Medicare   overpaid   $69 million for TPN in 1991

  �	   Qf $162 mllwn paid in claims for ZPN in 1991, 43 pe~ent or $69 million was
       impropedy paid for patients who did not meet Medicare’s coverage guidelines.
       Most of thae were end-stage renal dkease (ESRD) patients

Based on our sample results, we estimate that $68,862,240 (90 percent confidence
interval: $53,910,825 to $83,813,654) could be saved. Appendix A provides
information about the classes of patients for whom Medicare made payments.           The
following discussion centers around their status as ESRD enrollees or not ESRD-
eligible, since the two groups are very different in their use of parenteral nutrition.

  .	   i%e ESRD pahents in the sample (53 percent) do not meet coverage guidelinm.
       Zlze entire $545,000 spent for parentera[ num”tion on their behalf is an
       oveqnynen~ projected to $54.5 million nationally in 1991.

As discussed earlier, coverage guidelines prohibit payment for supplemental      feedings,

and require that patients have a functional impairment of the gastrointestinal     tract.

None of the 31 ESRD patients in the sample was totally dependent on parenteral

feedings. Generally, documentation     of functional impairments of the gastrointestinal

tract was not found in our review of certificates of medical necessity (CMNS) and

hospital admission data. Only one patient in the sample had a diagnosis code

associated with a hospital admission that indicated any failure of the gastrointestinal

tract.


The CMNS for these patients were incomplete, non-specific, and misleading.           Ten of

the 31 certificates did not indicate how many days a week the patient received

nutrients.   This was not merely a failure to document the number of times the patients

were fed, since payment amounts and the sumey of dialysis facilities discussed in

appendix C indicate that these patients are given nutrients three times a week, as are

the ESRD patients whose CMNS were completed.             The average number of grams of

protein ordered per day was 42, which is suboptimal for most patients.        The average

@      equivalent (i.e., the grams given per day times the three days given, divided by

the 7 days a week most TPN patients are fed) is less than 17 grams of protein a day,

which is clearly supplemental,    since it is not enough protein to sustain life in infants,

much less in adults. Non-ESRD patients were given an average daily equivalent of 74

grams of protein per day, every day in most cases.


The diagnoses entered on the CMNS were non-specific, referring to, for example,

“malnutrition syndrome with weight loss and visceral protein depletion.”

“Malabsorption”    is mentioned for many patients.    However, the medical literature uses

the term malabsorption      to describe the impaired absorption of nutrients due to

specific disorders of the digestive tract, not to episodes of nausea, vomiting and




                                              6

diarrhea in the absence of digestive disease. The most specific term used in the

CMNS was “diabetic gastroparesis,” or paralysis of the stomach.    This evidently refers

to delayed gastric emptying seen in some patients with diabetes.    Regardless of the

presence or absence of a functional impairment of the gastrointestinal   tract, these

patients used parenteral nutrition to supplement their oral intake. Thus it is not a

covered service.


We also saw misrepresentations      in the Ch4NS.     For example, 6 CMNS indicated

incorrectly that parenteral nutrition was the patient’s only form of intake; and all

indicated the reason pre-mixed formula was required was “sterility” or “patient unable

to learn,” when in fact the patient need not touch the nutrients or equipment, since

nurses in the dialysis facility administer the nutrients.    The “Beneficiary is in . . . “ field

was shown as “home” or “SNF” in al] instances in which it was filled in, although in fact

the nutrients were administered     in a dialysis facility. Additional information

concerning carriers and the number of ESRD beneficiaries they cover is in appendix

B.


  .	   Non-ESRD patients who are not dependent upon TPN had $144,000 overpa@
       which projects LO$14.4 million national& in 1991.

Of the 27 non-ESRD patients in the sample, 11 received too few grams [~f protein to

sustain life; or received TPN for only a short while (less than 3 months) and did not

die; m- both. This indicates that the therapy was not necessary to sustain life and/or

not required as a result of a functional impairment, in violation of coverage guidelines.


We calculated   the overpayment     for non-ESRD            patients   as follows:


One patient who received      too little protein    to survive,

on TPN for a year                                                                      $41,407.2(1


Eight patients who were on TPN for less than 3 months,

averaging 37 days                                                                      $91,644.43


Two patients who received      too little protein        to sumive,

for an average of 42 clays                                                             $10,584.61


Total overpayment                                                                     $143,636.24


The benefits of parenteral nutrition for ESRD patients are unproven, its use is

associated with a high rate of complication, and the cost of care is disproportionate          to

the resources expended.


The basis for giving    dialysis patients nutrients appears to rest on the perceived

connection between      raising serum albumin levels and reducing mortality in ESRD

patients, rather than    on gastrointestinal  impairments.   This connection does not

appear to have been      rigorously tested, with few clinical trials and mixed results. The



                                                    7

current strict requirements     for Medicare payment make it unlikely that such trials
would be conducted within       dialysis facilities largely supported by Medicare (since trials
would include patients who       do not meet the coverage guidelines), unless a separate
grant were to support such       research.

The high rate of complications may be related to using dialysis patients’ access ports
for both IDPN and the returning flow of dialyzed blood. (In contrast, indwelling
central catheters used by TPN patients are not to be used for any other purpose.)
The 31 ESRD patients had 30 readmission        with mechanical complications      of their
shunts, and 12 readmission    with other complications of treatment (many related to
tluid overload).  Eleven of these 42 readmission     were also for septicemia.     These
admissions may have been for complications     of their dialysis treatments,   their IDPN
treatments, or both. Only six patients had no readmission.       We do not know how this
compares to the rate of readmission for dialysis patients not receiving IDPN.

The Medicare Carriers Manual, Part 3, Chapter III, section 3329, refers to 1 to 1.5
grams of protein per day per kilogram of body weight as a guideline for adult TPN
patients.   Using a rough measure of ideal body weight (100 pounds plus or minus 5
pounds for each inch over or under five feet in height), we calculated the range of
grams of protein required and received by those patients whose CMNS contained
adequate information to perform the analysis. We considered patients over- clr under-
weight if they deviated from their ideal weight by 10 percent or more. Note that for
ESRD patients, the prescribed grams “per day” were actually administered    only three
days a week. We found that only six of 29 patients were underweight and two
overweight.    Taking the CMNS at face value, only 5 were fed within the range of 1 to
1.5 grams of protein per day per kilogram of body weight, and none were overfed.

,-                                                                                         —..
     ESRD   patients       fed too little	         ~fed within correct        I fed too much          ~
                                                   i range                                            I


~ Within 10 Yo of      I                      16                         5                       01
~ ideal weight         I

                                                                              I

1~Totals               I
                                             24 I                        51                      () II

The costs associated with delivering nutrients to ESRD patients should be less per
infusion than for non-ESRD patients for the following reasons: The nutrients can be
stored in bulk in the facility, with less wastage than at home (particularly when
patients are hospitalized); the facility’s nurses should be expert at handling the
equipment, resulting in less contamination     and thus waste; no catheter is involved, as
the solution goes into the patient’s blood stream with the cleansed blood; pumps and
IV poles could be shared between patients infused on different schedules.       The daily
cost per gram of protein delivered, however, for the 25 non-disabled ESRD patients



                                                   8
($5.96) does not reflect such savings, since the equivalent cost per gram per day for
the 9 disabled, non-ESRD patients is $3.72. A representative        of one major supplier of
both dialysis and nutritional therapy indicated that savings should not be expected,
because suppliers cannot become simply “shippers;” rather, according to the
representative,   the demands on the clinical expertise of the supplier remain the same,
including training of the facility’s nurses (rather than the patients and families). This
does not, however, explain why the costs for ESRD patients are higher than for non-
ESRD patients.

The payments for nutrients and supplies associated with the 328 days that ESRD
patients spent in the hospital were $29,257. We cannot be sure of the days on which
ESRD patients would have received dialysis and nutrients if they had not been
hospitalized, or if they received nutrients in the hospital (in contrast to TPN patients,
who are infused every day).

The use of TPN in the non-ESRD population, while adhering more closely to the
coverage requirements   for a demonstrable   functional impairment      is not closely
monitored by the carriers, resulting in inappropriate   patient selection and over- and
under-feeding.

We saw patterns of stopping TPN - a life-saving therapy - which raise questions.
Seven of the 27 patients stopped using TPN following an admissicm due to
complications of the therapy (although one of those patients spent 212 days in the
hospital, and may have been on TPN then). Only five patients who used TPN
intensively did not cease its use even when serious complications ensued.

Some of the high-intensity, longer-term patients who stopped therapy (and who are
not included in the overpayment calculation) may have gone into remission, although
this cannot be determined from the available data. We believe that the pattern of
stopping what is supposed to be a life-saving therapy on which the patient is
dependent may indicate poor patient selection by prescribing physicians, or
exaggerated claims on CMNS, or both. In only two cases of the six who were on TPN
for very short periods of time were the CMNS completed in such a way that the
carrier reviewer could reasonably have thought the patient qualified for TPN. In one
of the cases, the patient appeared to qualify for enteral rather than parenteral
therapy, based on the diagnosis and functional impairment.

Again using the Medicare Carriers Manual guidelines and a rough measure of ideal
body weight, we calculated the grams of protein required and received by those
patients whose CMNS contained adequate information to perform the analysis. We
considered patients over- or under-weight if they deviated from their ideal weight by
10 percent or more. The results are displayed on the next page.




                                             9

I Non-ESRD                fed too little        ~fed within correct        ~fed too much        I
1 patients                                      , range                    I




I
1 Totals              I                    4!                         81                   6!

Patients who are on TPN for only short periods (less than a month) have higher-than-
average monthly bills (in one instance $17,470 for a 30-day period). This is probably
due to (1) high contamination      rates when patients are not familiar with the therapy,
(2) intense efforts to overcome nutritional deficits, and (3) the delivery of a month’s
supply when the patient only uses the therapy for a short time. Conversely, some
long-term, stable patients can (and should, according to a physician who sees many
“overfed” TPN patients) reduce their intake, and thus achieve economies that short-
term patients do not. This is not true of all long-term patients, some of whom excrete
large quantities of fluid through fistulae, for example. One such patient had payments
for 12 months in 1991 of $122,130, for 145 grams of protein a day. The other long-
term, relatively-stable   patients in whom economies might be achieved do not appear to
bear out this possibility. One who received 85 grams of protein a day for $73,781 (for
12 months) was hospitalized 7 times for a total of 70 days, so the low total payment
could reflect failure to bill while the patient was hospitalized (i.e., the $73,781 actually
covered services for fewer than 10 months.)       Another long-term patient had payments
of $105,098 for 11 months, for 85 grams of protein a day, but was able to maintain a
weight of only 100 pounds.

Non-ESRD patients in the sample spent a total of 252 days in the hospital while TPN
was being billed. Using average daily costs, we estimate Medicare paid $5S, 195 for
TPN that was not used because the patient was hospitalized, although, as mentioned
above, some suppliers may reduce charges when patients are hospitalized.         Because
suppliers ship a month’s supply at a time (unless the patient or a care giver asks for a
smaller shipment because of a planned admission or likely prescription change), and
because nutrients have a limited shelf life, this wastage is largely unavoidable as cases
are currently managed.    Patients cannot take their prescription nutrients into the
hospital when they are admitted, because the hospital will not accept the liability for
infusing solutions their pharmacy did not prepare and store. Neither nutrients nor
sterile supplies can be returned to stock, because of the chance that they may have
been stored at an improper temperature      or have been contaminated.     Close
communication     between the supplier and patient (directly or through an agent) can
help to reduce the provision of unnecessary supplies, as can proper training and
supervision of patients, particularly in the early stages of therapy.




                                             10

                  RECOMMENDATIONS


F	   The HCFA should instruct carriers to adhere to the coverage guidelines.
     Failure to do so puts patients at risk of developing severe complications,  and
     wastes resources.  We estimate that a strict application of coverage guidelines
     would result in $69 million in savings yearly.

�	   Carriers should intensify their review of CMNs, discuss therapeutic options with
     physicians, and monitor the use of nutrients over time. One approach to
     carrying out these responsibilities would be the use of case managers to interact
     with physicians and suppliers, and to monitor patients on TPN. Case managers
     should have clinical backgrounds and extensive training in the use of TPN and
     Medicare’s requirements.     They should have the authority to approve hydration
     therapy, brief home health agency coverage, and other benefits for TPN
     patients. They should give prior approval to TPN, and monitor “weaning” of
     patients with some functioning intestinal tract. They should monitor as well
     those patients who use excessive TPN (more than 100 grams of protein per day,
     for example) or who are not given enough protein to sustain life. Case
     managers should pay particular attention to ESRD patients for whom IDPN is
     proposed.

b	   The HCF~ as the major payer, should review research concerning the use of
     IDPN. Among the questions to be answered are the relationship of low serum
     albumin levels to mortality, whether blood samples drawn within days of
     infusing amino acids can give an accurate reading of albumin levels, whether a
     history of complications with the venous shunt should be a contraindication       t[~
     the infusing of IDPN through the shunt, whether IDPN results in better
     nutritional status than enteral supplements, whether the low level of treatment
     (an average of 42 grams of protein three times a week) can be expected to
     improve nutritional status, whether the fluid used in lDPN is excessive for
     ESRD patients, whether albumin levels (or nutritional status) can be raised in
     some less-invasive way, whether it is necessary to use pumps to deliver the
     nutrients.  Until these and related questions are answered, parenteral nutrition
     should be used only in those ESRD patients who would qualify for it based on
     a documented,     life-threatening, functional impairment of the gastrointestinal
     tract, and in whom it is not a supplement to oral intake.

�	   If IDPN is considered reasonable and necessa~ for the treatment of a subset of
     ~RD      patients, it should be paid for on a per-capita basis, with discounts
     negotiated by each facility or the networks, or by using some other method that
     takes into account the efficiencies associated with facility administration    of the
     nutrients.




                                           11

AGENCY    COMMENTS


We received comments on the draft report from HCFA and the Assistant Secretary of

Management and Budget (ASMB), both of whom concurred with these

recommendations;    HCFA has taken steps to implement them. The HCFA will defer

responding to the question of appropriate    payment methods for intra-dialytic

parenteral nutrition until a coverage decision has been made. The HCFA’S comments

are appended in full.





                                        12

                                      APPENDIX                             A

MEDICARE           PAYMENTS           FOR TPN



Medicare made paymena of approxirnate~ $162 million in 1991 for TPN for 5,800
patients, projecting jiom a random~-selected one-percent jile of patienfi who received
TPN.

These patients       fell into four classes:


 Class (number)                1991 TPN                      average                  average age    average
 from enrollment               payments from                 daily TPN                               number of
 data                          one-percent                   payments                                days with
                               samp]e, CWF A                                                         TPN bills

 disabled, not                            $653,255.83               $255.28                   49.9             284#
 ESRD (9)
              —                                                                   I
 not disabled, not                        $420,176.11               $232.27 ~                 74.9                101
 ESRD ( 18)

 disabled,     ESRD                       $122,910.58               $97.70”                   49.8                210
 (6)
                                                                                  I
  not disabled,                           $422,075.67               $99.29* !                 70.9             170#
  ESRD (25)

                                       $1,618,418.19

 * f3SRD patientsdo not receive nutrientsdaily; they are given nutrients three times a week during their outpatient
cfi~ilysistreatments. These “daily” payments are calculated from the tot~ll ~:lid for the patients and the number of days
(inclusive)for whichpaymentswere“made.They receive so few grams o~ protein, however, that their costs per gram
are twice that of patients fed more and daily.


# These represent the number of days billed in 1991. Including the days billed in 1990, the first class of patients
had an average time of use of 397 days, and the last class, 173 days.


A See a discussion of the limitations of the data in the footnotes, appendix B.




                                                         A-1

PATIENT          CHARACIT3RISTICS

These patients varied in intensity of therapy, and in the length of time they received
TPN, as the table on the previous page shows. They also varied in their underlying
conditions and in their outcomes:
;———                                                       [                                                        I
: Class                    Most frequent    diagnoses          admitted with           I stopped    ~died in ~
, (number)                 (from hospital   claims)            complication of‘       ,~ TPN, did   ~ 1991
‘1                                                             therapy                 ~not die     !        ;1
I
i disabled,      not       Crohn’s disease, short-             67 % admitted,     1          22 %           11%1
~ ESRD        (9)          bowel syndrome,                     to 7 times
                           septicemia
                       I
~ not disabled,        i metastatic cancer,                ~42 % admitted,        1          56 %           44%1
I
  not ESRD             ~septicemia, dehydration,           ~to 3 times
~ (18)                 ~intestinal obstruction                                                                      ~:
                       I                                   I
‘ disabled,              chronic renal failure,            ~50    $ZO admitted,   1 I       100 % ~         17 % ~
                       I
  ESRD (6)             ~ diabetes                          I to   3 times
  ——— .———                                                              .~.....                         —
: not disabled,   chronic renal failure,                       40 % admitted,     1 1        44%’           52 %
  ESRD (25)     , hYPertens~     renal                         to 4 times
                1 disease, diabetes,                                                                         ““-]
                                                                                                                    l!
                ~congestive heart failure,
                I fluid overload. semis                                                             I               11




                                                        A -2

                                        APPENDIX                               B

CARRIER            DETERMINATIONS



Cam-em varied widely in their coverage determinations

                                         I                     1
                                                                                                                        I
     Carrier                             ~ Patients    in      ~Sample patients               Number of
                                         ~ sample              ~with ESRD:                    CMNS missing              ‘1
                                                                                                                        ‘1
                                         I                     ~ number (percent)             critical data             ‘1

~~South Carolina        Blue Shield      ~! 48 (83 %) ~                        27 (56 %) I
~~Transamerica         Occidental
                                         II
                                         ,1     7 (12 %) I                      2 (29 %) I
~ Travelers for Railroad                 i      3(5%)~                          2 (66 %) ~                         1 I
‘i Retirement Board (RRB)                ~
                                         I                                                                       z;!
I Totals                                 I 58 (100 %)                          31 (53 %)
,____                                                                                                                   I

South Carolina Blue Shiekl pays for (he majority OJ TPN/IDPN clairru; inconsklenl                                and
incomplete reporting make it impossible to determine payment trends

,[                                                                                                                 I
                                    I
                                                                                                                   ‘1
               ~South Carolina      ~Transamerica                  Travelers    for                                ,i
                                                                                                                   ~1
               I Blue Shield        I Occidental                   RRB                                             I
,11991         ~    $125,535,876    ~         $32,061,953      I          $4,243,990     I     $161,841,8190       ~~

Il—
                            7896                      20 %                        2%1                   100 Yo* ~
                                    I                                                    1


     1990           $122,911,719    I         $32,285,943:                $2,492,626     ~       $156,690,280      ~



‘, 1989        ~   $69,289,206A     I         $28,474.910      I          $2.260,578     I     $1 OO,024,695A 1~
               I            69 %                      28 %                        2%                    100 5ZO*~
!l__
�  This amount is projected from the cases in the sample discussed in this report.     The 1990 and 1989 figures tire
from summary Part B files maintained by HCFA.


* These totals understate total TPN payments slightly, since other carriers made minimal, spor~idic payments for
TPN nutrients and supplies in all three years.


A This probably underst:ites payments made by south Carolina Blue shield, which has a history of inconsistent and
incomplete reporting of TPN payments. Thus, these figures should not be used to attempt to determine trends in
TPN use and payment.




                                                        B-1

                                   APPENDIX                        C

ESRD PATIENTS               RECEIVING        NUTRIENTS       IN DIALYSIS       FACILITIES



An average of 2.4 percent of patients in a’iaiyti facilities receive intra-dia~hc           parenteral
nutntion (IDPN), in all cases only 3 times a week through their shunt.


 Facility size*;        Facilities            Have used            Currently   have   ~ Number   of        ~
 number in              which have            IDPN in the
 sample                 never used            past
                        IDPN
 Small; 27                              12                    5
 Medium;       44                       13                   11
 Large; 22                               4                    3

               Total                    29                   19

* Small = 1-9 stationy medium = 10-19; klrge = 20 or more.

                                   [                  I                                                    ,
 Status; number                    ~ Do not use       ~ Past use          Now use          Patients    on ~~
                                   ~ IDPN             ,                   IDPN             IDPN            !
                                                                                                           11
 For-profit;    53                 I             12 ~               gi                32 I             109 I
                                                                                      —+---–—         .——..,,
 Not for-profit;       40                        17 i              10 ~               13                51 II
 Total                                           29                191                45              160 !:

All patients in the 45 sample facilities currently using IDPN are fed 3 times a week, in
all cases through their access ports or venous shunts (rather than a central line).
None of them are on TPN at home.

We asked respondents      (usually the nursing supervisor, but in some cases a staff nurse
or staff dietitian) to discuss their facility’s use of IDPN. We did not speak to patients.
These responses are all anecdotal, since few facilities had any historic information
about patients’ use of IDPN and their outcomes.

The changes in patients’ health and quality of life most often cited by the respondents
(in descending order) were improved laborato~ values (particularly serum albumin);
weight gain; the patients’ feeling better, more energetic, or stronger; or the patients’
having a better outlook. The responses ranged from saying that IDPN “maintains life”
and “decreases mortality,” to saying that improvements    are-’’not dramatic” or patients
had negative reactions.   Two patients were cited who improved enough to qualify for



                                                   c-1
transplants, and indeed were transplanted.    Another respondent noted that in her

experience, only 10 percent of patients improve, 50-60 percent maintain their status,

and the rest are too late in the course of their disease to be helped.


Fifty-one of the facilities outlined their criteria for putting patients on IDPN. The

criteria mentioned most frequently were low serum albumin levels and weight loss.

Five mentioned Medicare’s requirements,        one cited guidance from their network, and

18 mentioned gastrointestinal     disorders. Among the reasons for using IDPN were that

“enteral fills them up and they don’t want to eat” and that “enteral products don’t

work because of fluid retention and no reimbursement          for them.” Other respondents

noted, however, that “oral supplements work if patients will take them” and that IDPN

is used infrequently in children, because “children can’t refuse NG (naso-gastric)

tubes.”


Among the reasons given for stopping IDPN were “dramatic improvements,”             reaching

a “target goal,” elevated blood glucose levels, chest pain (from tluid retention),

diarrhea, the treatment’s not helping, and the patient’s death. When IDPN is stopped

because of improvements,     respondents noted that some patients maintain their

improved status, but many do not. Those patients who use IDPN to recover from the

demands of surgery reportedly tend to maintain their status. Most respondents          noted

that patients are reevaluated, usually every three months, with one respondent        noting

“no patient has ever needed to go off treatment.”





                                            c-2
                 APPENDIX              D
COMMENTS   OF THE HEALTH   CARE   FINANCING   ADMINISTRATION




                            D-1
           .,,..1    <,,   ,
      ���                      ��                                                                     Health Care
     �
     �
 �                                  DEP.4RT.VE\TOF     HE.4LTH & HC.MAX      SERVICES                 F.nanc r; J.cl~ r 5“.3’ c?
.’
2

��             ��
     $.,
            >,,, ,,,




                    Date


                    F~om
                                     Acting Administrator

                    Sublect	
                                     Office of Inspector General (OIG) Draft Report: Inappropriate   Payments     for
                                     Total Parenteral Nutrition (TPN) (OEI-12-92-00460)
                    To
                                     Bryan B. Mitchell

                                     Principal Deputy Inspector   General



                                           We reviewed the above-referenced draft report which examined
                                     Medicare coverage of total parenteral nutrition (TPN), a “high tech” means of
                                     feeding patients who do not have a functioning intestinal tract.

                                           Our detailed comments on the report findings and recommendations are
                                     attached for your consideration. Thank you for the opportunity to review and
                                     comment on this draft report. Please advise us if you agree with our position
                                     at your earliest convenience.

                                     Attachment
